No. _________
IN THE SUPREME COURT OF THE UNITED STATES

PEDRO FERMIN BARAJAS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11190
Summary Calendar

FILED
June 25, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
PEDRO FERMIN BARAJAS,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-119-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
Defendant-Appellant Pedro Fermin Barajas pleaded guilty to being a
felon in possession of a firearm and was sentenced to 60 months in prison. He
now appeals, challenging the substantive reasonableness of his aboveguidelines sentence.
Fermin Barajas advocated for a shorter sentence in the district court, so
he preserved his substantive reasonableness challenge.

See Holguin-

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-11190
Hernandez v. United States, 140 S. Ct. 762, 766-67 (2020). In reviewing the
substantive reasonableness of a sentence, this court applies an abuse of
discretion standard. See Gall v. United States, 552 U.S. 51 (2007). A nonguidelines sentence is unreasonable if it does not account for a factor that
should have received significant weight, gives significant weight to an
irrelevant or improper factor, or represents a clear error of judgment in
balancing the sentencing factors. See United States v. Nguyen, 854 F.3d 276,
283 (5th Cir. 2017).
The district court in this case determined a 60-month sentence was
necessary based on Fermin Barajas’s extensive criminal history, which
included numerous convictions for theft, burglary of a habitation, assault with
bodily injury to a family member, and possession of a controlled substance.
Fermin Barajas contends that the district court failed to give proper weight to
mitigating factors, such as his steady employment history, committed
marriage, and low rate of recidivism. However, this court will not engage in a
reweighing of the 18 U.S.C. § 3553(a) factors. See Gall, 552 U.S. at 51. Fermin
Barajas has not shown that the district court abused its discretion in
concluding that his lengthy criminal history outweighed his mitigating
characteristics. See United States v. Smith, 440 F.3d 704, 709-10 (5th Cir.
2006).
The judgment of the district court is AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00119-A Document 34 Filed 10/25/19

U.S. DISTRICT COURT
NORTHERN DISTRICT OF TEXAS

Page 1 of 5 PageID
104
FILED

'miniteb ~tate£i j]Bi£ittid QCoutt

OCT 2 5

Northern District of Texas
Fort Worth Division
CLERK, U.S. DISTRICT COURT

UNITED STATES OF AMERICA

§

v.

§

PEDRO FERMIN BARAJAS

§

By.--~~--­
Dcputy

Case Number: 4: 19-CR-119-A(O 1)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney John P. Bradford.
The defendant, PEDRO FERMIN BARAJAS, was represented by Federal Public Defender
through Assistant Federal Public Defender Michael A. Lehmann.
The defendant pleaded guilty on May 10, 2019 to the one count Indictment filed on April
17, 2019. Accordingly, the court ORDERS that the defendant be, and is hereby, adjudged guilty
of such count involving the following offense:
Title & Section I Nature of Offense
18 U.S.C. § 922(g)(1) Felon in Possession of Firearm

Date Offense Concluded
03/02/2019

Count
1

As pronounced and imposed on October 25, 2019, the defendant is sentenced as provided
in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk ofthis Court, a special assessment of$100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody ofthe United States Bureau ofPrisons to be imprisoned for a term of60 months. This
sentence shall run concurrently with any future sentences which may be imposed in Case Nos.
1585850D, 1585851D, 1585853D, 1584854D filed in the 2971h Judicial District Court, and Case
No. 1585852 filed in the Tarrant County Criminal Court 1.
The defendant is remanded to the custody ofthe United States Marshal.

1

Case 4:19-cr-00119-A Document 34 Filed 10/25/19

Page 2 of 5 PageID 105

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
1.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician, with the defendant contributing to the costs of services
rendered at a rate of at least $25 per month.

6.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

7.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission ofthe Court or U.S. Probation Officer.

2

Case 4:19-cr-00119-A Document 34 Filed 10/25/19

Page 3 of 5 PageID 106

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten ( 10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

3

Case 4:19-cr-00119-A Document 34 Filed 10/25/19

Page 4 of 5 PageID 107

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 25th day of October, 2019.

NMcBRYDE
ITED STATES DISTRICT.

4

Case 4:19-cr-00119-A Document 34 Filed 10/25/19

Page 5 of 5 PageID 108

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on _ _ _ _ _ _ _, 2019 to _ _ _ _ _ _ _ _ _ _ _ _ _ __
at _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this Judgment.

United States Marshal for the
Northern District of Texas

By _______________________________
Deputy United States Marshal

5

